      Department of Homeland Security





     United States Coast Guard’s Management Letter for 

    FY 2012 DHS Consolidated Financial Statements Audit 





OIG-13-59                                         April 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      APR 4 2013


MEMORANDUM FOR: 	            Rear Admiral Stephen P. Metruck
                             Assistant Commandant for Resources,
                             Chief Financial Officer
                             United States Coast Guard

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT: 	                   United States Coast Guard’s Management Letter for
                             FY 2012 DHS Consolidated Financial Statements Audit

Attached for your information is our final report, United States Coast Guard’s
Management Letter for FY 2012 DHS Consolidated Financial Statements Audit. This
report contains observations related to internal control deficiencies that were not
required to be reported in the Independent Auditors’ Report on DHS’ FY 2012 Financial
Statements and Internal Control over Financial Reporting. Internal control deficiencies
that are considered significant deficiencies were reported, as required, in the
Independent Auditors’ Report, dated November 14, 2012, which was included in the DHS
fiscal year (FY) 2012 Annual Financial Report. We do not require management’s
response to the recommendations.

The independent public accounting firm KPMG LLP conducted the audit of DHS’
FY 2012 financial statements and is responsible for the attached management letter
dated March 12, 2013, and conclusions expressed in it. We do not express opinions on
DHS’ financial statements or internal control, nor do we provide conclusions on
compliance with laws and regulations.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security United States Coast Guard
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.
Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the FY
2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.
The United States Coast Guard (USCG) is a component of DHS. We noted certain matters, related to
USCG, that are summarized in the Table of Financial Management Comments on the following pages,
involving internal control and other operational matters that are less severe than a material weakness or a
significant deficiency, and consequently are reported separately to the Office of Inspector General (OIG)
and USCG management in this letter. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies. The disposition of each internal control deficiency identified during our FY
2012 audit – as either reported in our Independent Auditors’ Report, or herein – is presented in Appendix
A. The status of internal control deficiencies identified during our FY 2011 audit is presented in Appendix
B. Our findings related to information technology systems security have been presented in a separate letter
to the OIG and the USCG Chief Information Officer and Chief Financial Officer.
We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and USCG’s management, the DHS OIG, the U.S. OMB,
the U.S. Congress, and the Government Accountability Office, and is not intended to be and should not be
used by anyone other than these specified parties.
Very truly yours,



                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                    United States Coast Guard
                            Table of Financial Management Comments
                                       September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


 Comment
 Reference   Subject                                                                      Page

FMC 12-01    Fund Balance with Treasury (FBwT) Reconciliations                             2
FMC 12-02    Expense Process                                                               2
FMC 12-03    Accounts Receivable and Debt Collection Improvement Act (DCIA) Compliance     3
FMC 12-04    Operating Materials and Supplies                                              4
FMC 12-05    Financial Disclosure Reports                                                  4


APPENDIX

 Appendix    Subject                                                                      Page

    A        Crosswalk – Financial Management Comments to Active Notices of Finding and    6
             Recommendation (NFRs)
    B        Status of Prior Year NFRs                                                     8




                                                 1

                                     United States Coast Guard
                                  Financial Management Comments
                                        September 30, 2012


FMC 12-01 – Fund Balance with Treasury (FBwT) Reconciliations (NFR Nos. USCG 12-03 and
USCG-12-03a)

      During our testwork over FBwT as of March 31, 2012, we identified the following conditions:
      •	 The United States Coast Guard (USCG) did not properly research and resolve all differences
         identified during the monthly SF-224 reconciliation.
      •	 The monthly Government-Wide Accounting/Central Accounting Reporting System
         (Financial Management Service 6653/4) reconciliation was performed subsequent to the
         submission of financial data to the Department, and reconciling items were not researched
         and resolved. The reconciliation did not result, therefore, in timely, fully supported resolution
         of the differences identified.
      •	 Regional finance center payment schedules initiated by USCG directing Treasury to issue
         checks or other payments were able to be altered by personnel in the systems group prior to
         transmission through mid-March 2012; at that time, USCG modified the system roles in the
         Core Account System to prevent unauthorized changes.

      During our testwork over FBwT as of September 30, 2012, we identified the following condition:
      •	 USCG did not properly research and resolve all differences between their SF-224 data and
         Treasury Intragovernmental Payment and Collection (IPAC) and regional finance center
         systems prior to submitting their SF-224 to Treasury.

      Recommendations:
      We recommend that the USCG:
      •	 Investigate the effect of reporting on the SF-224 only what is recorded in the general ledger
         (GL) at the time of close.
      •	 Continue to perform the detective controls including the management review and approval of
         cash differences.
      •	 Ensure that the reports are prepared using the most current Treasury guidance.

FMC 12-02 – Expense Process (NFR Nos. USCG 12-05 and 12-05a)

      During our evaluations covering fiscal year (FY) 2012 expense transactions, we noted the
      following control deficiencies:
      •	 USCG did not record Accounts Payable, Delivered Orders–Obligations Unpaid, and the
          relevant asset or expense account at the time goods or services were received. Rather, items
          were recorded as an Accounts Payable or Delivered Order when paid.
      •	 USCG was unable to provide documentation to evidence that the required approval of
          payment was obtained prior to the transfer of funds for all IPAC transactions. Further, USCG
          was unable to provide documentation of when goods/services were received.
      •	 USCG was unable to provide documentation that all purchase orders were properly reviewed
          and approved by a Contracting Officer (CO).
      •	 USCG was unable to provide purchase request forms to support all expense amounts.
      •	 The Core Accounting System associated the incorrect trading partner identification numbers
          with some Federal vendors.
      •	 USCG did not properly record liabilities for all General Services Administration (GSA)
          cancelable lease payables. Payables and obligations should be recorded for the minimum
          lease term until cancellation.


                                                   2

                                    United States Coast Guard
                                 Financial Management Comments
                                       September 30, 2012


      •	 USCG expensed more than the amount obligated for travel orders.
      •	 USCG did not properly record expense transactions in all cases. Specifically, a cost incurred
         in FY 2011 was improperly recorded in FY 2012, and the object class was improperly
         recorded to the Core Accounting System.

      As a result of the exceptions identified, through FY 2012 expense testwork, we noted total
      projected misstatements to Operating Expenses (United States Standard General Ledger (USSGL)
      Account 6100) of approximately $20.6 million.

      Recommendations:
      We recommend that the Coast Guard:
      •	 Perform work in FY 2013 to assess feasibility of implementing a receipting function in order
         to address the timing issues between delivery of goods and services and the recording of an
         accounts payable.
      •	 Evaluate the IPAC process to refine procedures such that needed notification of receipt of
         goods and services are met.
      •	 Revise current procedures related to procurement such that:
             •	 Necessary reviews are conducted and signatures are obtained for all purchase orders.
             •	 Approval is received prior to processing payments.
             •	 Purchase request forms are properly maintained to support expenses.
             •	 Payables and obligations of minimum lease terms until cancellation are properly
                  recorded.
             •	 Adequate obligation amounts are required prior to expensing travel orders.
             •	 Consistent and adequate documentation of incorrectly posted expenses will be
                  properly maintained to support reversals/adjustments.
             •	 Accounting transactions are properly selected to prevent recordation of liabilities for
                  amounts already paid.
             •	 A monthly reclassification to correctly post benefits to USSGL Account 6400 is
                  performed.
             •	 Reconciliations to capture accurate expense activity in the Aviation Logistics
                  Management Information System are performed.
      •	 Document and implement a standardized policy to ensure that correct trading partner
         identification numbers are associated with the proper Federal vendors.
      •	 Verify that procedures are performed as documented to ensure transactions are expenses in
         the proper period and recorded to the proper line of accounting.

FMC 12-03 – Accounts Receivable and Debt Collection Improvement Act (DCIA) Compliance
(NFR No. USCG 12-11)

      During our evaluation of Coast Guard’s internal controls and account balances for Cost Recovery
      Accounts Receivable related to the Oil Spill Liability Trust Fund, we noted the following:
      •	 11 of 58 National Pollution Fund Center receivable balances that were more than 180 days
         past due were not properly referred to Treasury as of March 31, 2012.
      •	 National Pollution Fund Center was unable to provide support for “Unbilled Cost Recovery”
         amounts used to calculate the Incurred but Not Reported amount as of March 31, 2012.
      •	 The underlying data used to determine the amount of Unbilled Incurred but Not Reported for
         Deepwater Horizon was not complete and accurate as of March 31, 2012.


                                                  3

                                      United States Coast Guard
                                   Financial Management Comments
                                         September 30, 2012


       •	 National Pollution Fund Center did not review and approve rates applied to reserve amounts
          for Cost Recovery Accounts Receivable for FY 2012.

       Recommendations:
       We recommend that Coast Guard:
       •	 Design and implement effective internal controls to ensure outstanding Oil Spill Liability
          Trust Fund accounts receivable are referred to Treasury or the Department of Justice for
          collection prior to becoming 180 days delinquent.
       •	 Develop and maintain detail reports that support outstanding accounts receivable Oil Spill
          Liability Trust Fund summary balances.
       •	 Design and implement internal controls for reviewing the Deepwater Horizon Incurred but
          Not Reported calculation.
       •	 Develop and implement procedures for review and approval of the annual Oil Spill Liability
          Trust Fund allowance for doubtful accounts rate table calculation.

FMC 12-04 – Operating Materials and Supplies (OM&S) (NFR No. USCG 12-16)

       During our FY 2012 evaluations over the balance of OM&S, we noted the following control
       deficiencies:
       •	 Logistics centers were unable to provide sufficient support for all transactions selected for
           testwork.
       •	 Logistics centers had errors in various weighted average pricing calculations.

       As a result of the exceptions identified, through FY 2012 expense testwork, we noted total
       projected misstatements to OM&S (USSGL Account 1511) at September 30, 2012 of $12.3
       million.

       Recommendations:
       We recommend that Coast Guard:
       •	 Determine the underlying cause for the inability to support the Quantity On Hand in order to
          determine what caused the issue to ensure it is prevented in the future.
       •	 Correct the underlying system error that caused the miscalculation.

FMC 12-05 – Financial Disclosure Reports (NFR No. USCG 12-17)

      During Entity Level Control testwork, KPMG noted the following:
      •	 The USCG does not have adequate procedures in place to ensure new entrants to Confidential
         Financial Disclosure Report filing positions are required to file a New Entrant Confidential
         Financial Disclosure Report.
      •	 KPMG selected a sample of 25 Public Financial Disclosure Reports filed in 2012 and noted
         that one of the reports was not properly reviewed and approved by the Designated Agency
         Ethics Official (DAEO), the Chief Counsel of the USCG.

       Recommendation:
       We recommend that Coast Guard continuously evaluate and strengthen internal controls related
       to the Confidential Financial Disclosure Report and Public Financial Disclosure Report filings to




                                                    4

                              United States Coast Guard
                           Financial Management Comments
                                 September 30, 2012


ensure full compliance with all Confidential Financial Disclosure Report and Public Financial
Disclosure Report program rules.




                                           5

                                                                                                             Appendix A
                                         United States Coast Guard
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                  Disposition1
                                                                                                 IAR                 FMC
NFR No.       Description                                                               MW        SD        NC        No.
12-01         Property Plant and Equipment (PP&E) Site Visit Observations                C
12-02         Stewardship PP&E                                                           C
12-02a        Stewardship PP&E, Appended                                                 C
12-03         Fund Balance with Treasury (FBwT) Reconciliations                                                      12-01
12-03a        FBwT Reconciliations                                                                                   12-01
12-04         Opening Balances                                                           A
12-05         Expense Process                                                            E                           12-02
12-05a        Expense Process                                                            E
12-06         PP&E Asset Records                                                         C
12-07         Environmental and Disposal Liabilities Process Controls                    D
12-08         Non-Generally Accepted Accounting Principles Analysis                      A
12-09         Reimbursable Agreements                                                    E
12-10         Lease Recordation Process                                                  C
              Accounts Receivable and Debt Collection Improvement Act (DCIA)
12-11                                                                                                                12-03
              Compliance
12-12         Accounts Payable                                                           D
12-13         Financial Statements – Impacting Scripts                                   B
12-14         Recoveries of Prior Year Unpaid Obligations                                E
12-14a        Recoveries of Prior Year Unpaid Obligations
12-15         Intragovernmental Transactions and Balances                                A
12-16         Operating Materials and Supplies                                                                       12-04
12-17         Financial Disclosure Reports                                                                           12-05
12-18         Undelivered Orders (UDOs)                                                  E
12-19         Construction in Progress (CIP)                                             C
12-20         Federal Financial Management Improvement Act (FFMIA)                                           J
12-21         Financial Reporting Process                                                A
12-22         Real Property                                                              C
12-23         Federal Managers’ Financial Integrity Act (FMFIA)                                              I
12-24         Manual Journal Vouchers (JVs) and On-Top Adjustments                       A

1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation




                                                             6

                                                                                  Appendix A
                                       United States Coast Guard
                       Crosswalk – Financial Management Comments to Active NFRs
                                           September 30, 2012


Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                         7

                                                                                                                   Appendix B
                                                United States Coast Guard
                                                Status of Prior Year NFRs
                                                   September 30, 2012




                                                                                                  Disposition1
    NFR                                                                                                       Repeat
            Description                                                                           Closed2
    No.                                                                                                       (2011 NFR No.)
    11-01   Environmental Liabilities                                                                         USCG 12-07
    11-02   Heritage Assets                                                                                   USCG 12-02
    11-03   Financial Management Oversight                                                        X
    11-04   Statement of Net Cost                                                                 X
    11-05   Fund Balance with Treasury Reconciliations                                                        USCG 12-03
    11-06   Cumulative Results of Operations                                                      X
    11-07   Undelivered Orders                                                                                USCG 12-18
    11-08   Legal Liability Reporting                                                             X
    11-09   Accrued Payroll and Unfunded Leave Accrual (Military)                                 X
    11-10   Accrued Payroll and Unfunded Leave Accrual                                            X
    11-11   Financial Reporting Process                                                                       USCG 12-04
    11-12   Accounts Payable Accrual                                                                          USCG 12-12
    11-13   Financial Disclosure Reports                                                                      USCG 12-17
    11-14   Purchase Requests/Commitments                                                         X
    11-15   Accounts Receivable                                                                               USCG 12-11
    11-16   Operating Materials and Supplies                                                                  USCG 12-16
    11-17   Property Plant and Equipment (PP&E) Non-Construction in Progress (CIP) Assets                      USCG 12-19
    11-18   Federal Managers’ Financial Integrity Act of 1982                                                 USCG 12-23
                                                                                                              USCG      12-06,
    11-19   PP&E Asset Records
                                                                                                              USCG 12-10
    11-20   Human Resources Compliance with Laws and Regulations                                  X
    11-21   Intragovernmental Transactions and Balances                                                       USCG 12-15
    11-22   PP&E: Repairables                                                                     X
    11-23   PP&E: CIP                                                                                         USCG 12-19
    11-24   Actuarial Medical Liabilities                                                         X
    11-25   Federal Managers’ Financial Integrity Act of 1996                                                 USCG 12-20
    11-26   PP&E: 4th Quarter Site Visit Observations                                                         USCG 12-01


1
 KPMG was engaged to perform an audit over the DHS balance sheet as of September 30, 2012, and the related statements of net
cost, changes in net position and custodial activity, and combined statement of budgetary resources for the year then ended. In
addition, we were engaged to follow up on the status of all active NFRs that supported significant deficiencies reported in our FY
2011 Independent Auditors’ Report.
2
  The scope of our audit was limited to follow-up on NFRs that supported a material weakness or significant deficiency as
reported in our Independent Auditors’ Report. All other NFRs, e.g., that described insignificant findings, and therefore presented
to DHS management as observations for consideration, were considered closed.




                                                                8

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   United States Coast Guard’s

   Commandant
   Chief Financial Officer
   Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-59
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
